NO._____________

IN THE SUPREME COURT OF THE UNITED STATES
JOSE NOE CASTRO ORELLANA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(7), Petitioner Jose Noe Castro
Orellana asks leave to file the accompanying Petition for Writ of Certiorari to the United
States Court of Appeals for the Fifth Circuit without prepayment of costs and to proceed
in forma pauperis. Petitioner was represented by counsel appointed under the Criminal
Justice Act, 18 U.S.C. ยง 3006A(b) and (c), in the United States District Court and on
appeal to the United States Court of Appeals for the Fifth Circuit.
Date: April 7, 2021

Respectfully submitted,
MARJORIE A. MEYERS
Federal Public Defender
Southern District of Texas
Attorney of Record

MICHAEL HERMAN
Assistant Federal Public Defender
Attorneys for Petitioners
440 Louisiana, Suite 1350
Houston, Texas 77002-1056
Telephone: (713) 718-4600

